                    UNITED STATES DEPARTMENT OF EDUCATION
                               OFFICE OF THE INSPECTOR GENERAL




April 12, 2004

INSPECTION MEMORANDUM

To:            Phil Maestri
               Director, Management Improvement Team
               Office of Deputy Secretary

From:          Cathy H. Lewis
               Assistant Inspector General
               Evaluation, Inspection and Management Services

Subject:       Review of MIT Action Item Number 84 (ED/OIG I13E0001)

This memorandum provides the results of our inspection of one Action Plan item from
the Department of Education’s (Department’s) Blueprint for Management Excellence.
The EIMS group is examining several Action Plan items related to Human Capital. Our
objective is two-fold: 1) was the item completed as described; and, 2) as completed, does
the action taken help the Department towards its stated Blueprint objective (improve the
strategic management of the Department’s human capital). In this report, we examined
item number 84 (completed on July 30, 2002), concerning the expansion of innovative
recruitment strategies.

Background:

The action required by Action Item Number 84 was to:

        Expand innovative strategies to recruit employees, including notification in
        trade publications and state agencies

Human Resource Services (HRS) created a plan in June 2002 to address this action item.
The plan had four components: 1) increase and expand the use of EdHIRES, the
Department’s web-based, automated hiring system; 2) use paid advertising in newspapers
and trade publications; 3) establish a pilot program that requires hiring at least one career
intern employee in the Office of Management (OM) and in three program offices; and 4)
survey State Employment and Labor offices to determine feasibility of a working group
to assist in recruitment. The OM Director approved HRS’s plan to expand recruitment of
Department employees on July 30, 2002. This action was the basis for the completion
date identified by the Department.
OIG/Evaluations and Inspections       Inspection Report                    ED/OIG I13E0001




Objective 1: Did OM complete the actions needed to complete this item?

While the Department did develop a plan that would have completed this item, it has not
fully implemented that plan.

The Department introduced EdHIRES on December 7, 2001 to decrease the amount of
time and resources needed to fill positions. While EdHIRES original implementation only
allowed Department employees to apply for jobs, in March 2003 this capability was
expanded to all recruiting sources; an initial intent of the design. As designed the system
can also be tailored to send recruitment announcements to an identified list of
“professional/occupational websites.” This feature has not been brought on line.

HRS budgeted in 2003 for a subscription to WashingtonJobs.com, an online area job
database run through the Washington Post. However, HRS never obtained a subscription
to or used this online service, even though this service was noted in its approved plan.
The team determined they “did not need to spend the funds” because both EdHIRES and
USAJobs, the Office of Personnel Management’s online recruitment source, are available
nationwide. After the draft of this report was issued, HRS presented extra information
showing that while WashingtonJobs.com was never used, some Principal Offices within
the Department have placed job announcements in trade publications and online.

On July 10, 2000, the White House enacted Executive Order 13162, which created the
Federal Career Intern Program (CIP). This program was designed to “help agencies
recruit and attract exceptional individuals.” While HRS’s plan to expand recruitment
included establishing a pilot program to hire at least one Career Intern in OM and three in
other areas of the Department, according to HRS, the CIP “has never been a pilot” at the
Department. Currently under this program, the Office of the Chief Financial Officer
(OCFO) is employing three interns, hired in the Fall of 2002, and the Office of the
Inspector General (OIG) recently hired three others.

HRS planned to survey State Employment and Labor Offices located in the same vicinity
of Department Offices to determine the feasibility of forming a working group to help in
the Department’s recruiting efforts. To date, HRS has never surveyed any of these offices
about forming a consortium.

After being questioned on the frequency of usage of innovative recruitment tools, HRS
disclosed that it processed three recruitment bonuses and two continuation of retention
allowances in 2003. Managers use some recruitment and retention tools more frequently,
with superior qualification appointments being the most widely used. Two of the
innovative initiatives, CIP and Student Loan Repayment, have been used rarely. In 2002,
the Department hired three employees under the CIP and used the Student Loan
Repayment option twice. OM has not looked into the reasons behind this lack of use.

The plan put forward by HRS and cited as the basis for listing this action item as
“completed” has itself never been implemented. The Department has not fully utilized all


                                             2
OIG/Evaluations and Inspections       Inspection Report                    ED/OIG I13E0001


EdHIRES capabilities, encouraged the use of the CIP and Student Loan Repayment
strategies or surveyed State Employment and Labor Offices.

Objective 2: As completed, do the actions taken help the Department towards its
stated Blueprint Objective?

The Blueprint objective’s intent was to expand the Department’s innovative strategies for
recruitment and thereby help to improve the strategic management of the Department’s
human capital. The action taken does not help the Department towards this objective.

The plan, as outlined by HRS, has not been completed and there has been no follow up to
determine why the strategies offered are so rarely being used. Absent implementation
and an assessment of the plan’s effectiveness, there is no basis for concluding that the
actions identified as “completing” the action item will help move the Department toward
its underlying Blueprint objective.

Departmental Response

We provided the MIT with a draft report that contained recommendations that would, if
implemented, support the MIT’s decision to list the action item as “completed.” The MIT
generally did not concur with these recommendations and decided to “close” the item
instead. “Closed” indicates that the item is either no longer a priority for the Department
or has overtaken by events. Therefore, we have removed our recommendations from the
report. We have included the MIT’ comments in their entirety as an attachment.

Administrative Matters

We appreciate the cooperation given to us during the inspection. If you have any
questions or wish to discuss the contents of this report, please call me at 202-205-8639 or
Deb Schweikert, Director, Evaluations and Inspections Division at 202-205-5569. Please
refer to the control number in all correspondence relating to this report.




                                             3
                                               February 13, 2004


To:          Cathy H. Lewis
             Assistant Inspector General
             Evaluation, Inspection and Management Services

From:        Phillip Maestri, Director
             Management Improvement Team

Subject: Draft Inspection Memorandum (January 6, 2004)
         Review of MIT Action Item Number 84 (ED/OIG I12E0001)
         “Expand innovative strategies to recruit employees”

Thank you for the opportunity to review and comment on a draft version of this
inspection memorandum.

Comments on Background and Findings

In response to your draft memo, the MIT reviewed Department activities targeted to
“expand innovative strategies to recruit employees, including notification in trade
publications and state agencies.” As OIG reports, the action was designated “completed”
in July 2002 when the Office of Management (OM) Director approved an HRS plan to
address recruitment issues.

Consistent with your findings, the MIT found that some components of that plan were not
implemented. The implementation of the plan was not tracked by the MIT, first because
the item was “completed” based on the plan rather than the implementation, and second,
because the MIT did not track the implementation of offices’ milestones or the
component activities identified at their discretion that comprise the plan. As a result, the
Blueprint was not updated to reflect deviations OM made from its plan as it moved
forward with implementation. Specifically:

        One potential feature of ED Hires—to send recruitment announcements to
        identified websites—has not been used.

        One potential avenue of paid advertising – a subscription to WashingtonJobs.com –
        was not used.

        CIP was directly implemented, instead of begun by a pilot project in targeted
        offices.

        Recruitment partnerships with State Employment and Labor offices were not
        pursued.



                             400 MARYLAND AVE., SW., WASHINGTON, DC 20202-1510
                                                www.ed.gov

      Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
OIG/Evaluations and Inspections       Inspection Report                    ED/OIG I13E0001


Other components of the plan were completed, including:


        EDHires was expanded to serve all recruiting sources.

        Offices used paid advertising for recruitment. OM has examples of this
        advertising and reports that, in the last year, Principal Offices placed paid
        advertisements with Attorneyjobs.com, Hotjobs.com, Law.com, Monster.com,
        Global Media Group, New York Law Journal, New York Times, San Francisco
        Chronicle, San Francisco Examiner, San Francisco Recorder, and Washington
        Post. The principal offices have more information on where they advertise.

        CIP was implemented at ED and interns hired (6 since the inception; HRS reports
        that 5 other selections have been made and the candidates are awaiting security
        clearances). The Personnel Manual Instruction (PMI) on CIP was posted in
        March 2003 and is available to managers at http://wdcrobiis08/doc_img/pmi_302-
        2p1.doc

        Information on all recruitment and retention tools, including the innovative ones,
        is advertised on ConnectED at
        http://connected.ed.gov/index.cfm?articleobjectid=369AA60A-0D99-4360-
        BADC354F80568A8B
        and full descriptions are available at http://wdcrobiis08/doc_img/recruit.doc

The MIT concludes that these activities, in all probability, “helped the Department
towards” the Blueprint objective. We therefore think the OIG conclusion that “the action
taken does not help” is an overgeneralization of the results. The MIT recognizes that
there has not been a formal assessment of the plan’s effectiveness (that is, an evaluation
of the impact of the activities). OM has some data that suggests each vacancy
announcement draws a number of candidates that are qualified (between 3 and 8
depending on the occupational category). However, we cannot ascertain from that data
whether this is a sufficient number of applicants to meet the need nor if the certified
candidates were as qualified as the managers would like. Absent more information, it is
not possible to make a statement on the degree to which the objective has been achieved.
Such rigorous assessment of the impact of human resource activities was not built into
the Blueprint.

It is important to note that responsibility for recruitment and other personnel processes
are shared. The Blueprint recognized this shared responsibility. Action #84 was assigned
to all senior officers as well as OM (Action Owners), and to executive officers as well as
the HR Director (Responsible Individuals). Upon investigation, the MIT did not find
systematic information regarding the actions taken by these other parties. Informal
feedback suggests that front-line managers and executive officers are often unaware of or
do not understand the recruitment options available. A full understanding of the issue
and well-informed plan of action needs to address the scope of responsibility of HRS and




                                             5
OIG/Evaluations and Inspections       Inspection Report                     ED/OIG I13E0001


strategies for engaging senior officers, executive officers, and front-line managers in
improving human resource management.

A technical correction to OIG’s description of the use of recruitment strategies will make
it more accurate. Superior qualification appointments are not literally in the category
“recruitment bonuses and retention allowances.” Therefore the 50-100 requests a year
for “recruitment bonuses and retention allowances” is not accurate because most of these
are requests for superior qualification appointments. OM’s most recent data on this are,
in 2003, three recruitment bonuses were paid, two continuation of retention allowances
were paid, and 36 superior qualifications appointments were made.

The memo will be clearer if it only discusses the strategy investigated, i.e., the CIP. Other
recruitment tools were not components of the OM/HRS plan that the OIG investigated.
The MIT will need to do further research if OIG needs information on other strategies.

Developments since the completion

In the 18 months since the OM plan was first approved, the system of on-line job
applications and job announcements has matured and grown. EDHires allows both
internal and external candidates to find and apply for ED jobs on line. All ED vacancy
announcements appear on “USAJobs” (OPM’s site). State employment agencies create
seamless access to national job postings through America’s Job Bank (AJB). A MIT
cursory investigation suggests that the state job web sites link directly to USAJobs or, at
least, link directly to AJB, which links to USAJobs. College and university job web sites
also link to AJB and USAJobs.

HRS reports that senior HRS staff met with WashingtonJobs.com and determined it was
not cost effective to purchase the subscription, based both on cost and duplication
between this and other advertising sources. The OIG memo does not make it clear that
HRS followed up on this and made a specific determination.

Subsequent to its initial planning, HRS determined that the state employment working
groups were not an effective strategy. First, the need was limited. Regional office
recruitment is low relative to ED-wide need. As of January 2004, there were 11
recruitment actions in the regions (underway at various stages of the process), compared
to 172 headquarters recruitment actions underway. Second, it is not clear that state
employment offices are a good source of applicants. Third, electronic distribution of
information to state employment web sites through the AJB/USAJobs links meets much
of the need. Finally, HRS reports that Regional HRS offices participate on the Federal
Personnel Council and the Federal Executive Board, which serve some of their
networking needs.

Finally, OM developed a survey to help identify barriers to using special hiring and
compensation flexibilities. The survey was distributed January 29, 2004 to executive
officers and selected senior executives who OM identified as “key informants” with




                                             6
OIG/Evaluations and Inspections        Inspection Report                     ED/OIG I13E0001


specific experience with or insight into the use special hiring and compensation tools.
Responses were due to OM by February 6, 2004. OM will report its findings to the EMT.


Response to recommendations

The MIT concludes that the fundamental criteria in developing future HR-relative
activities must be the extent to which further activities are needed and whether the
benefits justify the costs. HRS dropped some of the components of the original plan
because, in the staff’s judgment, they were not cost-effective. The MIT suggests that
new recommendations address current needs and consider cost effectiveness.

Given experience with this and other hiring, recruitment, retention, and performance
appraisal related activities, much greater attention must be paid to the limited role that
HRS plays and how to engage those on the front lines. Supervisors, senior executives,
and executive officers are not cohesive groups accountable to one individual. But they
clearly must take on responsibility to forward this agenda.

Recommendation 1: “Fully implement EDHires by populating and using its
notification lists.” It might be cost-effective to implement the automatic notification
feature of EDHires, if targeted institutions can be identified and logically linked to the
specific types of job announcements. This will require further investigation.

Recommendation 2: “Publish job announcements in trade publications and
newspapers.” It appears offices already publish announcements in trade publications and
web sites. If there is evidence that this resource is underutilized, the response should take
into account that executive offices and front-line supervisors, rather than OM, may be the
ones to address this.

Recommendation 3: “Create a well-publicized CIP that follows the initial
requirements and effectively recruits individuals.” The CIP program was established.
The information is available on ConnectED. Note that supervisors are responsible for
identifying vacancies to fill using CIP and for ensuring it is a good developmental
experience for the interns. (See PMI 302-2) Determining whether the program is
underutilized and whether it is effective requires further investigation. The MIT suggests
that this recommendation focus on evaluating CIP. Further program implementation
should be guided by those findings. The HRS director is responsible for evaluating the
overall effectiveness of the CIP (PMI 302-2). The HRS survey of executive officers and
managers asks why they do not used CIP and other recruitment authorities. Using the
survey results, OM/HRS will report to the EMT on recruitment and hiring strategies.

Recommendation 4: “Survey local State Employment and Labor Offices about the
feasibility of forming a working group.” Given the limited recruitment at regional office
and the posting of ED vacancies announcements at state labor department web sites, this
activity has probably been rendered obsolete.




                                              7
OIG/Evaluations and Inspections        Inspection Report                     ED/OIG I13E0001


Recommendation 5: “Work with Executive Officers to identify why recruitment/ retention
tools are not being used. Develop a plan for encouraging greater use and share that plan with
the EMT.” The MIT suggests that this recommendation focus on assessing whether further use is
needed, rather than increasing the use of the flexibilities. Given the scope of HRS’ responsibility
and authority, executive officers and senior officers must take an active role in recruitment and
retention. HRS’ January survey of executive officers and selected managers addresses
recruitment and retention tools. OM/HRS will report to the EMT on the results of that survey.

Recommendation 6: “Within one year, survey executive offices to assess the effectiveness of
that plan.” OM has existing forums to communicate with executive offices. The MIT request
that this recommendation be sufficiently flexible to allow OM to find the best method to do such
follow up, which might not be a formal survey. As with recommendation #5, the MIT also
suggests consideration be given to the responsibility of the executive officers for carrying this out.

Recommendation 7: “Designate Action Item Number 84 as ‘open.’” The MIT concurs that
this action item was not completed as originally planned. As a result, the MIT will record action
item #84 as “closed” rather than “completed” and will provide more details regarding the specific
activities associated with this item in the comments section of the Blueprint.




                                              8
